                                  INSPECTION




DOI CONFERENCE PLANNING,
TRACKING, AND SPENDING




Report No.: ZZ-IS-MOI-0003-2014     August 2014
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                               AUG) 8 2014
Memorandum

To:            RheaS. Suh
                                          olicy, Management and Budget

From:          Mary L. Kendall
               Deputy Inspector General
                                                           1td4
Subject:       Inspection Report - DOl Conference Planning, Tracking, and Spending
               Report No. ZZ-IS-MOI-0003-2014

        We recently completed an inspection ofthe U.S. Department of the Interior (DOl)
conference planning, tracking, and spending to determine whether DOl complies with applicable
Federal regulations and Office of Management and Budget (OMB) mandates governing agency
conferences. Federal agencies are required to provide their Inspector General with information
on conference planning and spending in a timely manner and to post annual conference
information, including expenses, on its public website. We found that DOl provides OMB and
the public with estimated expenses rather than actual costs because actual conference
expenditures are not tracked. As a result, DOl cannot effectively determine if conference or
travel expenses have been reduced and, thus, if it has met OMB's policy guidance to control
costs. We make two recommendations that, if implemented, will help DOl comply with OMB
policy.

        We conducted our inspection from December 2013 through June 2014 in accordance with
the Quality Standards for Inspection and Evaluation as put forth by the Council of the Inspectors
General on Integrity and Efficiency. We believe that the work performed provides a reasonable
basis for our conclusions and recommendations.

Background

        OMB defines conference in the same manner as the Federal Travel Regulations: a
conference is considered to be any meeting, retreat, seminar, symposium, or other event that
involves attendee travel. The term also applies to training activities considered as conferences
under the Code ofFederal Regulations (5 C.F.R. § 410.404). Conference expenses include both
direct and indirect costs paid by the Government, whether directly by agencies or as
reimbursement from agencies to travelers or others associated with the conference. Conference
expenses do not include funds paid under Federal grants to grantees.

       In September 21, 2011, OMB guidance titled "Eliminating Excess Conference Spending
and Promoting Efficiency in Government" directed all Federal agencies to conduct a thorough
review of policies and controls associated with conference-related activities and expenses. On



                               Office of Inspector General I Washington , DC
May 11, 2012, OMB issued guidance titled “Promoting Efficient Spending to Support Agency
Operations.” The guidance required—

       •   senior level agency review of all planned conferences;
       •   senior level approval of all conferences exceeding $100,000;
       •   prohibiting expenses that exceed $500,000 for a single conference; and
       •   reporting to the public all conference expenses exceeding $100,000, including—
            the total conference expenses incurred by the agency for the conference;
            the location of the conference;
            the date of the conference;
            a brief explanation of how the conference advanced the agency’s mission; and
            the total number of individuals whose travel expenses or other conference
               expenses were paid by the agency.

        The DOI Office of Inspector General (OIG) management advisory report, “Conference
Planning and Spending at the Department of the Interior,” dated August 2012, found that DOI
was inadequately prepared to accurately track and monitor its conference expenses. At that time,
the Office of Financial Management (PFM) did not concur with all of OIG’s recommendations,
including the recommendation to develop a plan to track actual conference costs prior to January
1, 2013.

        Less than 1 year later, on June 27, 2013, Office of Policy, Management, and Budget
(PMB) issued an updated version of its “Guidance on Reporting Conference Related Activities
and Spending,” which directed all bureaus to provide PFM an annual plan at the beginning of
each fiscal year with anticipated conference costs, related travel expenses, and the number of
bureau participants in attendance.

       Public law 113-76, effective January 17, 2014, requires Federal agencies annually to
provide their OIGs with “costs and contracting procedures” for each conference held during FY
2014 for which the cost to the Federal Government would be more than $100,000. In addition, it
requires agencies to inform their IGs of the date, location, and number of employees attending
within 15 days of any conference for which they expect the cost to exceed $20,000.

Results of Inspection
       We found that DOI was inadequately prepared to accurately track and monitor its
conferences and related expenses as required by public law and OMB policy guidance. As part of
our inspection, we judgmentally selected one conference from each bureau that held any
conferences estimated to cost over $20,000 in FY 2013. We also selected one joint or multiple
bureau conference. Our inspection sample consisted of 10 conferences, 5 of which had been
estimated by their respective bureaus to cost more than $100,000. We found that PFM could not
provide us actual cost information for bureau conferences held and, therefore, we requested this
information from the bureaus directly.

       Specifically, we found that PFM does not track, verify, or report on actual bureau
conference expenditures. PFM requires each bureau at the beginning of the fiscal year to supply
an annual plan detailing the conferences it expects to conduct. The PFM director told OIG that


                                               2
his office does not know if the bureaus reported all conferences estimated to cost more than
$20,000.

        PFM reported previously that the additional effort required to gather and report actual
conference costs is not merited because the burden of tracking costs at an individual conference
level outweighs the benefits. We found that the estimated and actual costs associated with these
conferences were not as close as PFM reported.

       To better understand the impact of conference planning, tracking, and spending on DOI,
we asked PFM to provide a list of all bureau conferences in FY 2013 that had estimated costs
exceeding $20,000. Ninety conferences comprised this list. Of the 90 conferences on this list,
DOI expected approximately 4,500 individuals to attend, for a total estimated cost of $7.5
million. 1

        After verifying PFM’s list with bureau contacts, we identified over 100 conferences that
had actually been planned and held during the year. The difference between PFM’s list and the
actual number of conferences held is partially explained by some conferences being canceled or
added during the year. We found that 7 out of the 10 conferences we selected for our sample
were not included on their specific bureau’s annual conference plan submitted to PFM at the
beginning of FY 2013.

Significant Differences in Bureaus’ Planned Versus Actual Conference Data

       We reviewed conferences where the estimated expenses and number of participants
varied widely from the bureau’s actual figures provided to OIG. For example, the actual
conference costs for the U.S. Geological Survey’s (USGS) “Northeast Climate Science Center
Stakeholders Engagement Meeting,” decreased from $74,678 to $51,073 due to a reduction in
the number of expected travelers from 40 to 23 individuals paid for by DOI. The conference
expenses for the Office of Natural Resources Revenue’s (ONRR) “Petroleum Accountants
Society of Oklahoma Royalty Audit/Compliance Workshop” also decreased from an estimated
$89,846 to an actual cost of $80,994, with one additional employee attending over the originally
estimated 73 ONRR participants.

        The estimated costs for the “Private Lands Partner Conference,” hosted by the U.S. Fish
and Wildlife Service (FWS), were overestimated because FWS included employee salaries,
partner-paid transportation and extra food. Even though the number of conference participants
increased from 29 to 42, the actual cost to FWS was reduced by approximately $49,000. This
conference’s actual bureau costs were only $6,300.

        The estimated cost of the Bureau of Indian Education’s (BIE) “Professional Development
– BIE Principal Leadership Academy” conference was $113,656, with an estimated 50 bureau
participants and 8 tribal officials scheduled to attend. The actual conference cost came in nearly
$72,000 higher than the estimate. The information Indian Affairs (IA) provided to OIG indicated
that the actual total cost of the conference was $185,630. The supporting information, however,
1
 Neither the Bureau of Land Management nor OIG appeared on this list because these bureaus did not report any FY 2013
conferences costing more than $20,000.




                                                             3
included costs not in the estimate. BIE could not verify that all bureau-paid costs were included
in the total figure or provide any additional support. IA provided a travel voucher list for 38
bureau employees, and BIE indicated that a total of 50 bureau participants actually attended but
did not supply additional support. When submitting the BIE conference request to the Deputy
Secretary, a senior PMB official noted that BIE submitted its request for approval right before
the conference was scheduled to begin and the contract for training, mentoring, and coaching had
already been awarded. The former Deputy Secretary approved the conference because of the
significant investment already made and the worthwhile nature of the conference.

        The National Park Service (NPS) estimated that its “Bio-Discovery Event Conference”
would cost a total of $425,286, with DOI paying an estimated $175,286 and the National
Geographic Society paying $250,000. The actual cost of the conference totaled $372,403, and
DOI paid much less than planned, contributing only $94,383. The conference approval document
cited the estimated number of DOI traveling participants as 35; the actual number of DOI
participants was 90. The actual number of external participants, however, totaled 2,373,
significantly less than the original estimate of 3,000.

         The Bureau of Ocean Energy Management (BOEM) could not provide us with the total
actual expenses for its “Characterizing Tribal Cultural Landscapes Workshops” conference.
Approved at the Deputy Secretary level, this conference consisted of three 2-day workshops held
in August and September 2013, hosted by the National Oceanic and Atmospheric Administration
(NOAA) through an interagency agreement with BOEM. The purpose of these workshops was to
develop a proactive approach to working with Native American communities to identify areas of
tribal significance and potential impacts for consideration in regional offshore renewable energy
planning and decision-making. NOAA subcontracted for its portion of the conference
development and invoiced BOEM for those expenses. Although BOEM had requested this
information from NOAA early in our inspection, the data remained unavailable at the conclusion
of our fieldwork.

        BOEM’s approved conference plan estimated its portion of the conference expenses to be
between $137,198 and $147,977 and NOAA’s expenses to be approximately $30,000 to $40,000.
NOAA’s portion helped cover the cost of facilities, catering, and conference set-up, in addition
to about $20,000 that helped pay the salaries of two tribal facilitators. BOEM sent only three
employees to this conference instead of the originally estimated seven employees. BOEM
planned to pay for an additional estimated number of non-DOI attendees ranging from 62 to 78
participants. The conference’s request for approval listed BOEM as planning to pay for
“invitational travelers,” a projected cost of $18,341. BOEM could not provide us the actual
number of non-DOI participants and their related travel expenses, leaving us unable to precisely
determine the final number of attendees.

        We found that the estimated and actual expenses most closely matched each other for the
three other conferences we reviewed:

           •   The Bureau of Safety and Environmental Enforcement’s “First Annual Domestic
               and International Standards Workshop;”
           •   The Bureau of Reclamation’s “81st International Commission on Large Dams;”
               and


                                                4
           •   USGS’ portion of the joint conference on the “Society of Environmental
               Toxicology and Chemistry (SETAC).”

        When we looked at the data pertaining to the FWS portion of the SETAC conference, we
noted that FWS provided actual travel expenses for only 24 of the 26 participants and did not
provide support for non-travel expenses, such as registration fees. Therefore, we could not
determine whether the estimated and actual expenses were closely aligned for the FWS portion
of the conference.

        We acknowledge that all bureaus experienced difficulties and delays when trying to
obtain the requested conference travel expenses for FY 2013 because of the change in DOI’s
travel system at the end of that year. Although the GovTrip (DOI’s travel system used prior to
FY 2014) legacy system and archives containing the bureaus’ travel data were supposed to be
available by January 2014, this information was not accessible until the end of February 2014.
As a result, PFM did not provide us with the travel information for its “Financial Statements
Guidance Team/Finance Officers Partnership (FSGT/FOP) Workshop” until well after our
fieldwork had been completed.

DOI Does Not Publicly Report Actual Conference Costs as Required

        DOI reported estimated conference costs rather than actual expenses on its PFM-
administered public website for all FYs 2012 and 2013 conferences having planned expenditures
exceeding $100,000. PFM does not explain, however, that these costs are only estimates, even
though the conferences have already occurred. PFM also does not ask the bureaus to provide
actual expenses for conferences they hold or compile this information independently as part of
the work that goes into notifying the public of DOI conference expenses. OMB, however,
requires that Federal agencies provide the “total conference expenses incurred by the agency for
the conference,” as well as the “total number of individuals whose travel expenses or other
conference expenses were paid by the agency.” OMB also requires Federal agencies to post this
information on their official websites by January 31 after the end of the fiscal year when the
conference occurred.

        We found that PFM planned to report that it had saved $17 million in travel and $2
million in conference costs between FYs 2012 and 2013. When we asked for the documentation
to support this claim, PFM officials told us that those savings were based on estimated
expenditures for approved conferences, not on actual expenditures. The final report for FY 2013
did not cite any conference savings.

        We also found a discrepancy with DOI’s planned reporting of the number of conferences
held. PFM’s list of 90 conferences provided to OIG at the start of the inspection included 20
conferences costing more than $100,000 in FY 2013. We selected 5 of those conferences to
review for this inspection. We then contacted the bureaus to obtain actual cost data and learned
that one of these conferences had been canceled. PFM reflected this change in DOI’s final FY
2013 public report, indicating that the expenses of 19 conferences “exceeded $100,000.” As
noted previously, however, PFM still did not provide the actual conference costs.




                                               5
        PFM and the bureaus are inconsistent with the information they include or do not include,
especially with regard to the estimated costs and the estimated number of participants reported
for planned conferences held and reported publicly. OMB makes it clear that agencies are
required to report out on all conference expenses in excess of $100,000. For those conferences,
the report should include the total actual costs incurred and paid for by the agency and the total
actual number of participants for which the agency pays the expenses associated with conference
attendance.

Scope and Methodology
To accomplish our objective, we—

       •   obtained a general understanding of applicable Federal regulations and laws; recent
           OMB policies governing agency conference planning, tracking, and spending; and
           DOI conference guidance;
       •   reviewed past relevant reports on Federal conference activities and travel
           requirements;
       •   reviewed the annual conference plans of individual DOI bureaus;
       •   obtained the total planned number of DOI conferences, the number of bureau
           participants attending each of these conferences, and the estimated cost of all
           conferences exceeding $20,000 in FY 2013 from PFM, then verified this information
           with bureau contacts;
       •   obtained from bureau contacts support for actual conference and travel expenditure,
           but did not independently verify this information;
       •   judgmentally selected a representative sample of DOI conferences; and
       •   compared estimated conference expenses with actual expenses provided by bureau
           contacts -- 2 of the 10 conferences selected were not held, so we chose replacements
           to review, thus ensuring that each bureau with planned conferences over $20,000 had
           one conference reviewed.

Recommendations

   We recommend that:

       1. PFM work with the bureaus to set up accounting structures to collect actual
          conference costs and related travel expenses for conferences held or attended that cost
          $20,000 or more; and

       2. DOI adhere to the OMB requirement to report actual conference expenses exceeding
          $100,000 on its official website; until DOI has a system in place to document actual
          expenses, its public website should include a disclaimer statement about the data
          presented.

       Please provide us with your written response to this report within 30 days. The response
should provide information on actions taken or planned to address the recommendations, as well




                                                6
as target dates and title(s) of the official(s) responsible for implementation. Please address your
response to:

                       Kimberly Elmore
                       Assistant Inspector General for Audits, Inspections, and Evaluations
                       U.S. Department of the Interior
                       Office of Inspector General
                       Mail Stop 4428
                       1849 C Street, NW.
                       Washington, DC 20240

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.

      If you have any questions regarding this report, please contact Kimberly Elmore at 202-
208-5745.




                                                  7
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
